FILED
FEB 14 2020

19=1041
No.
In The

Supreme Court of the United States
ROSTISLAV KHRAPKO,
Petitioner,
v.
KRISTIN SPLAIN,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR WRIT OF CERTIORARI

Rostislav Khrapko
Pro Se Petitioner
11 West 3rd Street
Apt. 303
Corning, NY 14830
(607) 368-7896
hansiks@gmail.com

i

QUESTIONS PRESENTED
1. Whether discrimination with no legitimate
rationale, motivated by government corruption
violates the Equal Protection Clause of the United
States Constitution?
2. Whether factually suggested allegations of
government corruption, Due Process, and Equal
Protection violations may be dismissed pursuant to
domestic relations exception to federal jurisdiction?
3. Whether the Court of Appeals has jurisdiction
over interlocutory appeal from the District Court
Order which refused or denied declaratory relief and
injunction against allegedly corrupt Decisions and
Orders issued by referee Splain?

11

PARTIES TO THE PROCEEDINGS
Rostislav Khrapko, Petitioner, resident of Steuben
County, NY, Plaintiff-Appellant below. Kristin
Splain, Respondent, in her official capacity as Court
Attorney Referee, Monroe County Family Court,
Defendant-Appellee below.
Steuben County Court Clerk Jody Wood and Court
Attorney Mark Schlechter are included in the caption
of the Second Circuit case No. 19-2619 because they
were in the Order appealed from, (DefendantsAppellees below). Kathryn Muller and Steuben
County are included as Defendants in the action still
pending in the District Court.
No corporations are involved in this proceeding.
RELATED PROCEEDINGS
The proceedings in the federal trial and appellate
courts identified below are directly related to the
above-captioned case in this Court.
Khrapko v. Splain, et al., Case No. 6:19-cv-06309DGL (W.D.N.Y.). The Western District of New York
entered an order dismissing the complaint with
prejudice as to the Defendant Kristin Splain and two
other Defendants from New York State on July 23,
2019.
Khrapko v. Splain, et al., Case No. 19-2619 (2nd
Cir.). Timely interlocutory appeal was filed on August
14, 2019. The Second Circuit dismissed the appeal on
December 12, 2019.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..............................

1

PARTIES TO THE PROCEEDING..................

11

RELATED PROCEEDINGS..............................

11

TABLE OF CONTENTS...................................

m

TABLE OF AUTHORITIES..............................

IV

OPINIONS BELOW..........................................

1

JURISDICTION.................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS.....................................................

2

STATEMENT OF THE CASE...........................

2

REASONS FOR GRANTING THE PETITION

6

1. There is a Split in the Definitions of Equal
Protection and Discrimination.................... 6
2. The Court Must Assert Federal Jurisdiction
Over Egregious Constitutional Violations by
the Family Court System Which is Believed
to Be Too Big to Fail
8
3. Recurring Wrongful Dismissal Is a Denial of
12
Justice
CONCLUSION

16

APPENDIX
A. Appendix A - District Court’s Decision and
Order (July 23, 2019)
App. 1
B. Appendix B - Second Circuit’s Order
(December 12, 2019).......................... App. 12

IV

TABLE OF AUTHORITIES
Page
CASES
Allen v. DeBello,
861 F.3d 433 (3rd Cir. 2017)...................

9

Brut v. City of New York,
156 F.2d 791 (2d Cir. 1946).....................

7,8

Engquist v. Oregon Dept, of Agriculture,
553 U.S. 59.1 (2008)..................................

6

Hardwick v. County of Orange,
844 F. 3d 1112 (9th Cir. 2017)..................

9

Petrello v. White,
553 F.3d 110, 113 (2d Cir. 2008)..............

5

Village of Willowbrook v. Olech,
528 U.S. 562, 564 (2000)............................

6,7

CONSTITUTION AND STATUTES
U.S. Const. Amend. 14

.. 2, 10, 11, 16

28 U.S.C. § 1254(1) ...
28 U.S.C. § 1291........
28 U.S.C. § 1292(a)(1).
28 U.S.C. § 1331........
42 U.S.C. § 1983........

1
......5, 12
2, 4, 5, 12
3
2

1
OPINIONS BELOW
The United States District Court for the Western
District of New York issued Decision and Order on
July 23, 2019 dismissing the complaint with prejudice
as to Defendant Kristin Splain and two other
Defendants, state employees. The Order has
document number 16 in the District Court’s docket
No. 6:19-cv-06309-DGL and is reprinted in Appendix
at App. 1-11.
The interlocutory appeal with the case number 192619 was filed by United States Court of Appeals for
the Second Circuit on August 20, 2019. Appellant brief
and joint appendix were filed on October 23, 2019,
documents No. 24 and 25, the Second Circuit docket
No. 19-2619. Upon due consideration an order
dismissing the appeal was issued on December 12,
2019. The order was filed with document No. 31, the
Second Circuit docket No. 19-2619 and reprinted in
the appendix at App. 12.

JURISDICTION
The United States Court of Appeals for the Second
Circuit filed the interlocutory appeal with the case
number 19-2619 on August 20, 2019 and upon due
consideration issued an order dismissing the appeal
on December 12, 2019. The jurisdiction of this
Honorable Court is invoked pursuant to 28 U.S.C. §
1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS
The Fourteenth Amendment provides that “nor
shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.” U.S. Const. Amend. 14.
42 U.S.C. § 1983 provides as follows:
“Every person who, under color of any statute,
ordinance, regulation, custom, or usage, or any
State or Territory or the District of Colombia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action of law, suit in equity,
or other proper proceedings to redress...”.
Pursuant to 28 U.S.C. § 1292 the courts of
appeals have jurisdiction to hear timely appeals from
interlocutory orders of the types specified in that
section. That section provides the courts of appeals
with jurisdiction to hear appeals from: “(1)
interlocutory orders from the district courts of the
United States... granting, continuing, modifying,
refusing or dissolving injunctions, or refusing to
dissolve or modify injunctions.” 28 U.S.C. § 1292(a)(1).

STATEMENT OF THE CASE
The 42 U.S.C. § 1983 Civil Rights action was
commenced in the W.D.N.Y. Court on 04/26/2019. The
District Court had original jurisdiction pursuant to

3

28 U.S.C. § 1331 because the complaint sought
prospective declaratory and injunctive relief to
prevent future alleged Constitutional violations.
In the underlying case referee Splain made a false
statement of fact in contradiction to the evidence she
admitted, and issued an order based on that false
statement allowing the sale of an estate at Heritage
Auctions to pay most of the $80,000.00 proceeds to
attorney Colleen Zink in legal fees. The complaint
provided documental evidence of 8 orders by referee
Splain based on false statements of fact, actionable to
the most valuable decisions, all of them falling in favor
of attorney Zink and her client.
Based on the facts suggestive of judicial corruption
Petitioner alleged that due process was violated
(because knowingly issuing court orders based on
false statements of fact is not the due process, and
case fixing for bribes is not the due process).
As the lawsuit was being prepared, more claims
were added to the complaint. These included claims of
referee Splain obtaining, retaining, and abusing
delegated judicial powers in violation of procedural
due process and the claims of two other State Court
employees assisting in the procedural violations.
Finally, claims were added against Steuben
County for the policy of taking their piece of pie by
falsifying court ordered spousal support as child
support and reporting such falsified information to
the Department of State and the IRS. These claims
against the Steuben County are the only ones still
pending in the District Court.
A motion to dismiss was filed by the Office of
Attorney General of New York State, and it was a
massive 22-page legal document. Every aspect raised

4
in that motion was responded and denied by
Petitioner in detail. However, District Judge Hon.
David G. Larimer dismissed the complaint against the
State Defendants with prejudice. See App. 1-11.
An interlocutory appeal was filed from the part of
the order which refused or denied declaratory relief
and injunction against allegedly corrupt decisions and
orders by referee Splain. In his brief Petitioner asked
the Court of Appeals to remand the case and to outline
a Constitutionally adequate and practically available
avenue for the complaints factually suggestive of
irrational and purposefully discriminating acts by
State judicial officers to proceed to a jury trial.
Petitioner asserted the appellate jurisdiction
pursuant to 28 U.S.C. § 1292(a) for the appeal from
the part of the order which refused or denied
declaratory relief and injunction and argued that:
(1) Factual pleadings suggested that issuing
orders based on false statements of fact
contradicting admitted evidence was irrational,
perjured, purposeful, and corrupt.
(2) Building the case with allegedly irrational
orders, all of them discriminating one party, is
a purposeful discrimination.
(3) Procedural due process violations by the state
court served to impose allegedly corrupt orders
(4) Claims alleging corruption, Due Process
violations in state court proceedings, and equal
protection violations may not be dismissed
pursuant to domestic relations exception.
(5) There is no immunity from official capacity
claims for prospective declaratory and
injunctive relief.

5
However, 4 months after the appeal was filed, the
Court of Appeals for the Second Circuit issued an
order dismissing the appeal for a lack of jurisdiction.
See App. 12. That order wrongfully relied on Petrello
v. White, 553 F.3d 110, 113 (2d Cir. 2008). Petrello is
similar to our case in that there was no suggestion
that appellate jurisdiction rested on § 1291. No final
judgement had been entered. In Petrello the Second
Circuit Court had tested the applicability of §
1292(a)(1) to the interlocutory appeal and determined
that the specific-performance order of the district
court was not an injunction because it did not instruct
to perform specific acts, was unenforceable, and did
not impose any deadline to perform any act.
Contrary to Petrello, in our case the District Court
refused and denied an injunction against the orders
which were being enforced by the local law
enforcement, already cased the material loss in excess
of $100,000 to Petitioner, and still remain in effect
despite being issued in violation of the United States
Constitution. The citation used by the Circuit Court is
relevant in terms of discussing an interlocutory
appeal but is not applicable because the injunction
refused by W.D.N.Y. District Court was for the orders
injunctive in nature.
Adding to the confusion and to the error in the
decision of the Court of Appeals, the text order stated
that the case was dismissed for the lack of jurisdiction
pursuant to 28 U.S.C. § 1291. As discussed above
there was no indication in our case that § 1291 was
invoked. The appeal was docketed as interlocutory
and the appellate jurisdiction based on § 1292(a) was
stated in the appellant brief.

6

REASONS FOR GRANTING THE PETITION
1. There is a Split in the Definitions of
Equal Protection and Discrimination
An inconsistency in the approach to Equal
Protection analysis used by the Circuits started before
the Village of Willowbrook v. Olech, 528 U.S. 562, 564
(2000) and continued thereafter. In Olech the Court
held that the allegations that plaintiff “has been
intentionally treated differently from others similarly
situated and that there is no rational basis for the
difference in treatment” are sufficient “to state a claim
for relief under traditional equal protection analysis”.
The Court did not reach the alternative theory of
“subjective ill will’ relied on by the seventh Circuit
(although it was acknowledged by Justice Breyer).
Still, the Seventh Circuit continues to use their
“Vindictive Action” theory.
In Engquist v. Oregon Dept, of Agriculture, 553
U.S. 59.1 (2008) the Court again explained that the
“Equal Protection Clause requires a “rational basis for
the difference in treatment””. Still, the Second Circuit
has a theory that “plaintiff must allege facts showing
that.... the difference in or discriminatory treatment
was based on “impermissible considerations such as
race, religion, intent to inhibit or punish the exercise
of constitutional rights, or malicious or bad faith
intent to injure a person””. See App. 8. While the
Second Circuit acknowledges the “class of one” theory
developed by the Court in Olech, they largely ignore it
as they did in the present case.
Petitioner stated that referee Splain “is being sued
in her official capacity for violating the due process by
making false statements of fact which are in direct
contradiction to the evidence she admitted, and

7

issuing decisions and orders based on such
statements, discriminating Plaintiff, causing damage
to Plaintiff in excess of $100,000”. The reason for the
discrimination, as compared to the treatment received
by the other party, was alleged to be “a conflict of
interests arising from corruption”. Petitioner
presented an overwhelming factual evidence
suggestive of purposeful discrimination, and alleged
criminal intent.
Similar to Olech, our complaint can fairly be
construed as alleging that referee Splain intentionally
falsified evidence and stripped Petitioner of property.
The complaint further alleged no legitimate rational
basis for these actions. Wrongfully, such actions of
referee Splain did not invoke the “impermissible
considerations” theory of the Second Circuit, see App.
8, 9. Even robbery under color of law would not involve
impermissible considerations such as race, religion,
etc.... The “vindictive action” theory of the Seventh
Circuit is also not invoked by discrimination for profit
because there is no hatred involved, just the business
of abusing power and collecting bribes by an
intelligent judicial officer. Accordingly, and
wrongfully, the Equal Protection claim was dismissed
by the District Judge, while the “class of one” theory
developed by the Court in Olech was ignored.
The District Court failed to follow a historic
example from the Second Circuit, Brut v. City of New
York, 156 F.2d 791 (2d Cir. 1946). In Brut, plaintiff
specified 8 instances, in seven of them he was singled
out for unlawful oppression. The allegations asserted
“purposeful discrimination” and the Court of Appeals
remanded the case. In our case, even a single incident
of a highly qualified judicial officer making an
actionable false statement of fact and issuing a high

8

value order based on that false statement suggests an
act of purposeful discrimination with no legitimate
rational basis. Despite of 8 such unlawful incidents
documented in the complaint, all of them coherently
falling in favor of one party, the District Court stated
that “Plaintiff has not alleged any facts supporting an
equal protection claim”, see App. 9.
In Brut (1946) the logic used by the judges was
simple and straightforward: there are multiple
recurring occasions when plaintiff was put down by a
government official - remand the case to the trial
court and find out what’s going on. As compared to the
modern theory approach: no matter what the
allegations are, Petitioner is a white male, there is no
reason for hatred towards him, so, he is treated fairly
by the court. Claim to be dismissed. This faulty
approach puts the system above the law. Predictably,
corruption in the family court system is commonly
considered to be widespread and endemic.
2. The Court Must Assert Federal
Jurisdiction Over Egregious
Constitutional Violations by the Family
Court System Which is Believed to Be
Too Big to Fail
The question of domestic relations exception
centers on the determination of constitutionality of
the proceedings used in state court. Once it is alleged
that the proceedings are unconstitutional, the fact
that domestic issues are involved in the action does
not provide a license to violate the Constitution.
Rather, it is an aggravating factor because when
families with children suffer from judicial corruption,
discrimination, unlawful separation, it takes a heavy
toll on the Nation and on future generations.

9
The matter of the controversy is the Constitutional
violation. Petitioner was seeking a declaration that
referee Splain had violated the Constitution.
Petitioner challenged the underlying process that
governed how the judgements were made. Being
involved in a hearing of a matrimonial case does not
give a license for judicial corruption, nor does it allow
for systematic discrimination and violation of Equal
Protection.
Still, federal judge David G. Larimer stated that:
“To the extent that plaintiffs claims challenge the
outcome, or any aspect of the underlying proceedings
in state court, those claims are dismissed, pursuant to
the domestic relations exception to federal
jurisdiction.” See App. 5.
Domestic proceeding may be outside of federal
jurisdiction if the Constitution is not violated, as in
Allen, where the Third Circuit, regrettably, did not
recognize equal custody of their children as a
constitutional right of fit parents after separation.
Allen v. DeBello, 861 F.3d 433 (3rd Cir. 2017). In our
case obvious Constitutional violations were alleged
and factually suggested. There is no way to dispute
that government corruption and perjury violate the
Constitution as Ninth Circuit held in Hardwick:
“There is no such thing as a minor amount of
actionable perjury or of false evidence that is
permissible.
Why?
Because
somehow
government perjury and the knowing use of
false evidence are absolutely and obviously
Fourteenth
with
the
irreconcilable
Amendment's guarantee of Due Process in our
courts.” Hardwick v. County of Orange, 844 F.
3d 1112 - 2017.

10
From a practical standpoint, corrupt courts tend to
maximize the monetary value of their orders, the
amount of money being transferred pursuant to such
orders. In domestic relations cases men are believed
to fall victims more often to the corruption in courts
because it is easier to deprive men of property and
future earnings, however, women are also known to
become the victims, especially if they do not connect
with the “right attorney”. Children almost always
become the victims of corrupt family courts because
they can be used to pull the money from a parent or
from government funding only if they are deprived of
equal parenting by both biological parents.
United States is in the top percentage of children
being raised by one parent, and this is not because
Americans do not want to parent their children but
because court orders reduce parents to visitors
following a separation and deprive children of equally
shared parenting.
Constitutional violations extend beyond the
Fourteenth Amendment when domestic relations
matters are decided by corrupt courts. To assess the
consequences and implications of tolerating
corruption in the court system we consider applicable
Constitutional Amendments and the articles of the
Universal Declaration of Human Rights herein below.
A corrupt judicial officer may arbitrarily issue any
order based on the request of those who paid the bribe,
depriving a person of liberty or security. Such orders
are enforced by law enforcement personnel covered by
immunity because they follow a judicial order. This
violates Constitutional Amendments 4, 5, 14 and the
Universal Declaration Articles 3 and 9.

11
A corrupt judicial officer may subject a person to
prolonged and extended litigation, irrational and
unjust decisions and orders to morally break down,
and financially ruin individuals and force them into
submission to injustice. This violates Constitutional
Amendment 8 and Universal Declaration Article 5.
A corrupt judicial officer is not getting bribes for
making just and equitable decisions. A corrupt officer
sells official power to make and enforce
discriminatory and unlawful rulings. This violates 14th Constitutional Amendment and Universal
Declaration Article 7, while Articles 16 and 17 may be
specifically violated by family court.
Arbitrary or irrational orders removing children
from fit parents issued by corrupt family court judges
violate Universal Declaration Article 12 stipulating
that no one should be subjected to arbitrary
interference with his privacy, family, home, etc...
The lack of an effective remedy by a competent
national tribunal for acts violating the fundamental
rights violates Universal Declaration Article 8 and the
principle of access to the courts. In the United States
it is practically impossible for a Civil Rights suit to
seek remedy in federal court against allegedly corrupt
judges for the reasons addressed in this Petition. We
pray for this Court to define a path to justice for those
affected by government corruption.
Thus, it is paramount that the Supreme Court
grants a Writ of Certiorari and sets an example of how
the issue of corruption is address by the U. S. courts.

12
3. Recurring Wrongful Dismissal Is a Denial
of Justice
The order to dismiss the appeal for the lack of
jurisdiction was issued by the Second Circuit 4
months after the appeal was filed and a month and a
half after appellant brief and joint appendix were
filed. The Second Circuit order is confusing and
inconsistent, it sited the case where § 1292(l)(a) was
invoked but stated the lack of jurisdiction pursuant to
§ 1291, which was not in dispute. This dismissal of the
appeal followed the wrongful dismissal of the
complaint against State Defendants by the District
Court (questions #1 and #2 of the Petition).
If the Second Circuit’s order is affirmed it would
create a dangerous precedent where District Court
dismisses all the serious allegations of corruption,
Due Process and Equal Protection violations, removes
the Defendants from the suit and refuses injunctive or
any equitable declaratory relief, and the appeal from
that order is denied because a small portion of the suit
was separated and is still pending.
From the practical standpoint nothing will change
in the District Court as far as the order appealed from
is concerned, but the burden is mounting on plaintiff
(Petitioner), which may eventually force him to
abandon the suit.
Wrongful dismissals of Civil Rights lawsuits at the
federal court level place a heavy burden on Pro Se
Plaintiffs. The Office of the State Attorney General
serving as an attorney for State Defendants makes it
even harder. However, filing a Civil Rights lawsuit in
federal court is the only action against alleged
corruption which is directly available to American
citizens. Alternative and a more “friendly” approach

13
of asking State or Federal Government Agencies for
help runs into a pattern of refusals, denials and
dismissals as we present below.
The New York State Division of Human Rights
accepts and investigates complaints
about
discrimination. These complaints need to match one
of the specific categories such as race, religion, etc...
Corruption of state employees and discrimination for
profit is not on their fist, and such complaints are not
even considered by the Division. This is what they told
over the phone, while not providing any written
response. This approach mirrors the theory of Equal
Protection employed by the Second Circuit and is
discussed in question #1 of this Petition.
The office of Attorney General of NY has several
bureaus accepting public complaints. Public Integrity
Bureau is the only one dealing with corruption of state
employees. They never answered complaints from
Petitioner, which is consistent with the fact that
Attorney General represents allegedly corrupt state
employees in federal lawsuits.
The local District Attorney’s Office referred
Petitioner to a special investigator who responded a
few times via e-mail. The most recent response was
that he “briefed and updated District Attorney in
regard to the information provided. If the Federal
Judge wishes for the matter to be reviewed by the
State Attorney’s Office, please advise our office, and
our office will conference with the State Attorney
General’s Office if they open an investigation.” This
indicated that the District Attorney takes orders from
the Attorney General, who represents Defendants in
the federal lawsuit, which does not give much hope for
help against alleged corruption in the State Court.

14
Another resource would be the FBI. Petitioner
submitted letters to the FBI with a detailed info
regarding alleged judicial corruption, however, there
was no response.
Yet another Government Agency is the U.S.
Department of Justice, Civil Rights Division,
Criminal Section. After receiving the second letter
from Petitioner they responded that “The Criminal
Section prosecutes criminal cases involving: Civil
Rights violations by persons acting under color of law,
such as federal, state, or other police officers or
correction officers; hate crimes”, etc... There was
nothing about corruption of judicial officers or other
court employees. They suggested that Petitioner may
want to contact the FBI, which he already did, with no
success.
There is a complaint mechanism built into the
state judicial system itself, and it consists of two
parts. Complaints about judges are to be submitted to
the Commission on Judicial Conduct. That
Commission typically responds that judicial acts by a
judge on the bench are off limits for them. As such,
they provide no remedy against judicial corruption,
unless a complaint contains forensic evidence of the
money changing hands, which is not available to
Petitioner.
Complaints about Court Attorney Referees and
other judicial officers in Western NY who are not
judges need to be submitted to the Deputy Chief
Administrative Judge Michael Coccoma in Albany.
They have never taken any action other than
forwarding the complaints to Rochester, NY. Later,
when the Civil Rights lawsuit was filed in federal
court, they stopped responding at all. They take no

15
action even as referee Splain has not recused herself
while being sued in federal court and has stalled the
proceedings for over a year while her delegated
mandate gives her one month for a decision. She
effectively keeps the State Court proceedings hostage,
the fact which was obscured in the District Court
Order by multiple error remarks about “ex-wife”.
Apparently, the internal complaint mechanism built
into the state judicial system is not functional as far
as alleged judicial corruption is concerned.
Finally, democratic election of judges in Western
New York could provide a protection from outright
violations on the bench, so that bad judges would not
be re-elected for the next 10-year term. But this
democratic mechanism may be disabled by travelling
judges. In the Steuben County, according to the court
Clerk’s office, all contested divorce cases are assigned
to a Monroe County Family Court judge elected in
Monroe County. He travels 1.5 hours on a highway
coming from Rochester to Bath, NY, makes all the
decisions here for us and leaves back to Rochester. It
should be noted that contested divorce cases are by far
the most expensive cases with attorney’s fees several
times higher than in average proceedings. It is
problematic for Steuben County residents to inform
the judge’s electorate in Monroe County about his
performance on the bench in Steuben County.
The futile efforts described herein suggest that in
NY State no effective remedies exist for
Constitutional violations by allegedly corrupt state
court employees, other than a Civil Rights lawsuit in
federal court. As discussed herein, this option is
practically unavailable for most victims. Each corrupt
family court professional may be responsible for

16
extensive Constitutional violations, and thousands of
victims. Still, very few cases reach federal court and
almost none proceed to a trial due to the wrongful
claim of domestic relations exception to federal
jurisdiction and other false claims of the lack of
jurisdiction. The Supreme Court should grant a Writ
of Certiorari and clear the path for US citizens to seek
protection guaranteed by the 14-th Amendment of the
United States Constitution.

CONCLUSION
For the foregoing reasons the Court should grant a
Writ of Certiorari.
Respectfully submitted,
February 14 2020
Rostislav Khrapko
Pro Se Petitioner
11 West 3rd Street
Apt. 303
Corning, NY 14830
(607) 368-7896
hansiks@gmail.com

APPENDIX

1

APPENDIX
TABLE OF CONTENTS
Page
APPENDIX
A. Appendix A — District Court’s Decision and
Order (July 23, 2019)
App. 1
B. Appendix B - Second Circuit’s Order
(December 12, 2019).......................... App. 12

